<html>
<title> - THE FEDERAL TRANSIT ADMINISTRATION'S STATE SAFETY OVERSIGHT PROGRAM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
  THE FEDERAL TRANSIT ADMINISTRATION'S STATE SAFETY OVERSIGHT PROGRAM

=======================================================================

                                (109-90)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    HIGHWAYS, TRANSIT AND PIPELINES

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 19, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                    U.S. GOVERNMENT PRINTING OFFICE
30-660                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

?

            SUBCOMMITTEE ON HIGHWAYS, TRANSIT AND PIPELINES

                  THOMAS E. PETRI, Wisconsin, Chairman

SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         NICK J. RAHALL II, West Virginia
JOHN J. DUNCAN, Jr., Tennessee       JERROLD NADLER, New York
JOHN L. MICA, Florida                GENE TAYLOR, Mississippi
PETER HOEKSTRA, Michigan             JUANITA MILLENDER-McDONALD, 
SPENCER BACHUS, Alabama              California
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
SUE W. KELLY, New York               EARL BLUMENAUER, Oregon
RICHARD H. BAKER, Louisiana          ELLEN O. TAUSCHER, California
ROBERT W. NEY, Ohio                  BILL PASCRELL, JR., New Jersey
FRANK A. LoBIONDO, New Jersey        TIM HOLDEN, Pennsylvania
JERRY MORAN, Kansas                  BRIAN BAIRD, Washington
GARY G. MILLER, California, Vice-    SHELLEY BERKLEY, Nevada
Chair                                JIM MATHESON, Utah
ROBIN HAYES, North Carolina          MICHAEL M. HONDA, California
ROB SIMMONS, Connecticut             RICK LARSEN, Washington
HENRY E. BROWN, Jr., South Carolina  MICHAEL E. CAPUANO, Massachusetts
TIMOTHY V. JOHNSON, Illinois         ANTHONY D. WEINER, New York
TODD RUSSELL PLATTS, Pennsylvania    JULIA CARSON, Indiana
SAM GRAVES, Missouri                 TIMOTHY H. BISHOP, New York
MARK R. KENNEDY, Minnesota           MICHAEL H. MICHAUD, Maine
BILL SHUSTER, Pennsylvania           LINCOLN DAVIS, Tennessee
JOHN BOOZMAN, Arkansas               BEN CHANDLER, Kentucky
MARIO DIAZ-BALART, Florida           BRIAN HIGGINS, New York
JON C. PORTER, Nevada                RUSS CARNAHAN, Missouri
TOM OSBORNE, Nebraska                ALLYSON Y. SCHWARTZ, Pennsylvania
KENNY MARCHANT, Texas                JAMES L. OBERSTAR, Minnesota
MICHAEL E. SODREL, Indiana             (Ex Officio)
DAVID G. REICHERT, Washington
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Clark, Richard W., Director, Consumer Protection and Safety 
  Division, California Public Utilities Commission...............    10
 Love, Duana, Division Manager, Oversight and Technology 
  Development, Northeastern Illinois Regional Transportation 
  Authority......................................................    10
 Kraus, Robert, Rail Transit Safety Specialist, Missouri 
  Department of Transportation...................................    10
 Millar, William W., President, American Public Transportation 
  Association....................................................    10
 Schruth, Susan E., Associate Administrator for Program 
  Management, Federal Transit Administration.....................     2
 Sedlock, Robert, Manager, Fixed Guideway Safety Oversight, New 
  Jersey Department of Transportation............................    10
Siggerud, Kate, Director, Physical Infrastructure Issues, U.S. 
  Government Accountability Office...............................     2

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    24
Porter, Hon. Jon of Nevada.......................................    49

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Clark, Richard W................................................    25
 Kraus, Robert...................................................    35
 Love, Duana.....................................................    39
 Millar, William W...............................................    44
 Schruth, Susan E................................................    50
 Sedlock, Robert.................................................    57
Siggerud, Kate...................................................    62


  THE FEDERAL TRANSIT ADMINISTRATION'S STATE SAFETY OVERSIGHT PROGRAM

                              ----------                              


                        Wednesday, July 19, 2006

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Highways, Transit, and Pipelines, 
            Washington, D.C.
    The subcommittee met, pursuant to call, at 2:30 p.m., in 
room 2167, Rayburn House Office Building, the Honorable Thomas 
E. Petri [chairman of the subcommittee] presiding.
    Mr. Petri. Good afternoon, we will get started. I 
apologize, the rest of my colleagues are on the floor. I 
apologize for the confusion of the vote.
    Rail transit is a very safe mode of transportation. There 
were 3.25 billion passenger trips on heavy rail, light rail, 
and other rail in 2004, and a total of 82 fatalities; of these 
27 were suicides which could not be foreseen or prevented by 
the transit agencies.
    There are a number of reasons that riding transit is a very 
safe way to travel. In general, transit vehicles are much 
larger and more substantially built than personal cars and 
vans. Most railcars run on separate right of ways, and rail 
crossings are usually protected by crossing gates. Furthermore, 
transit vehicle operators are highly trained to drive 
defensively and anticipate potential safety problems.
    However, any number of preventable acts is too many. 
Transit providers must strive to make every trip safe and 
reliable.
    Because the Federal Transit Administration is not a 
regulatory agency, it does not manage a top-down safety 
inspection and enforcement program like those of the Federal 
Railroad Administration, Federal Aviation Administration, or 
Federal Motor Carriers Safety Administration. Instead, the 
Federal Transit Administration relies upon State safety 
oversight agencies that are designed by each State that has a 
fixed guideway rail system. There are currently 42 rail transit 
systems under the State Safety Oversight Program in 26 
different States. In the next three years, as many as seven 
more rail transit systems may open, including systems in two 
additional States.
    We are holding this oversight hearing today to explore the 
effectiveness of the FTA State Safety Oversight Program. We 
will talk about FTA's program goals and performance measures, 
the Government Accountability Office's finding in a year long 
review of this program, and the actual day to day management of 
the State oversight agencies.
    Even though transit is a very safe mode of travel, 
accidents do happen. Last Tuesday, July 11th, a blue line 
Chicago Transit Authority train derailed and caught fire in the 
tunnels below the Clark and Lake subway station. Thankfully, 
there were no fatalities, although two people remain in the 
hospital in critical condition. The Regional Transit Authority, 
the State safety oversight agency for CTA is appearing at 
today's hearings. We will listen with interest to a realtime 
discussion of how an oversight agency responds to accidents on 
the transit system they oversee.
    The State Safety Oversight Program was first created in the 
1991 ISTEA Authorization Bill and is overall a successful 
program. However, there may be room for improvement even in a 
good program, and we look forward to exploring those suggested 
improvements at today's hearing.
    I would like to thank all the witnesses who traveled to the 
Nation's Capital to present testimony at today's hearing. 
Statements by the Chairman of the full Committee, the Ranking 
Democratic Member and my colleague, Mr. DeFazio, will be made a 
part of the record.
    We would now like to turn to the first panel: Ms. Susan E. 
Schruth, who is Associate Administrator for Program Management, 
Federal Transit Administration, and Ms. Kate Siggerud, 
Director, Physical Infrastructure Issues of the U.S. Government 
Accountability Office. We thank you for your prepared 
statements and invite you each to summarize them in about five 
minutes, beginning with Ms. Schruth.

  TESTIMONY OF SUSAN E. SCHRUTH, ASSOCIATE ADMINISTRATOR FOR 
   PROGRAM MANAGEMENT, FEDERAL TRANSIT ADMINISTRATION; KATE 
   SIGGERUD, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Schruth. Thank you, Mr. Chairman. Thank you for this 
opportunity to testify on the FTA State Safety Oversight 
Program.
    My written testimony contains detail on the development of 
this program as well as improvements that have made it the 
success that it is today. This afternoon, I would like to 
highlight a few of these successes and then briefly describe 
areas in which we seek to enhance the program.
    With over three billion transit trips provided annually, 
the rail transit industry has much to be proud of. Analysis of 
transportation-related accidents, fatalities, and injuries 
consistently show that rail transit is the safest mode of 
transportation in the United States.
    Since your Committee authorized the State Safety Oversight 
Program in 1991, it has contributed to this impressive safety 
record. FTA published a final rule for the program in 1995 with 
a two-year phased-in effectiveness period. The startup of the 
program was challenging, particularly in States with little or 
no previous oversight responsibility. FTA worked closely with 
the affected States and rail transit agencies to ensure that 
resources were dedicated to create oversight agencies and that 
technically competent managers led the newly created oversight 
agencies.
    As specified in ISTEA and recommended by the NTSB, the 
State Safety Oversight Program takes a unique approach to 
safety oversight. FTA is responsible for setting minimum 
requirements and for monitoring implementation. Primary safety 
oversight responsibility lies with the States. After a decade 
of experience with the program, we believe that this is an 
effective model.
    In 2003, FTA undertook improvements to the program based on 
FTA's experience with the program as well as recommendations 
from the Federal Railroad Administration and NTSB. FTA 
published a revised Part 659 in 2005, which made several 
program changes. The new rule specifies in detail the minimum 
contents of a system safety program.
    Based on input from the States and transit agencies, we 
identified program-specific requirements through the Federal 
rulemaking process which included notice and public comment. We 
believe these more explicit requirements tailored to the 
specific oversight role of the State safety oversight agency 
and the implementation role of the transit agency enhance both 
the usability and the enforceability of the provisions and are 
necessary to improve the effectiveness of the program.
    Last year, SAFETEA-LU further amended and enhanced the 
program. First, SAFETEA-LU requires that the State Safety 
Oversight Program be extended to rail transit projects in the 
design phase. This will help us ensure that the State safety 
oversight agencies are ready to provide oversight as soon as 
transit commences service. And second, SAFETEA-LU clarifies 
that when a transit agency operates across State lines, the 
rail transit agency should be subject to one uniform set of 
safety oversight standards.
    Mr. Chairman, in my written testimony, I provide several 
examples of the benefits of the program. I would like to 
highlight one here. Leading up to the Salt Lake City 2002 
Olympics, the Utah Oversight Agency actively engaged with Utah 
Transit to ensure that safety was addressed effectively in 
contracts, service plans, and vehicle testing programs. During 
the games, Utah's Spectator System, provided by the Utah 
transit Authority, carried over 2.5 million passenger trips 
without a single safety incident.
    In this example, as with so many others, it is difficult to 
quantity benefits based on accident data alone. Because of the 
importance of being able to do so, we have undertaken two 
efforts to develop ways to quantify this program's positive 
effect.
    First, we have conducted an extensive analysis of all data 
reported to FTA by the rail transit agencies and oversight 
agencies. Using this data, we will establish goals for 
reduction in critical accident categories as well as create 
measures to assess how well we meet these goals.
    Second, I would like to highlight the work we are doing 
with the Oklahoma State University. Through this study, FTA 
will be able to articulate and use performance measures that 
capture less tangible but important measures such as passenger 
perception of safety and security, near misses, and measures 
that can articulate the safety benefits from specific design 
features or operating procedures. In an industry that is safe, 
many of these measures will identify the incremental benefits 
of the program.
    We are also reinstituting our triennial audit cycle. During 
the three year period between October of this year and 
September of 2009, we will audit each of the 26 State safety 
oversight agencies.
    In closing, Mr. Chairman, FTA believes that the State 
Safety Oversight Program has contributed to rail transit safety 
and has proven its merits as a sound, successful oversight 
program. As with all of our programs, we are committed to 
continuous improvement. Looking forward, we will work to 
improve the program with new statistical performance measures 
and a more comprehensive State Safety Oversight Training 
Program.
    FTA is proud of the State Safety Oversight Program to date, 
and we look forward to working with you, Mr. Chairman, and your 
Committee to make it even better.
    I am happy to answer any questions, Mr. Chairman, and 
request that my written statement be entered into the record. 
Thank you.
    Mr. Petri. Thank you. It will be made a part of the record.
    Ms. Siggerud?
    Ms. Siggerud. Chairman Petri, Ranking Member DeFazio, and 
members of the Subcommittee, I appreciate the opportunity to 
testify on Federal efforts to oversee the safety and security 
of the Nation's rail transit systems.
    Rail transit is one of the safest forms of public 
transportation, accounting for less than 6 percent of all 
accidents while providing almost 32 percent of all passenger 
trips. Nevertheless, safety and security are still concerns as 
shown by the accident last week in Chicago and recent attacks 
of terrorism on European and Indian rail systems.
    The focus of my testimony today is FTA's State Safety 
Oversight Program. I will first describe how the State Safety 
Oversight Program is designed; second, discuss its impact on 
rail transit safety and security; and third, identify 
challenges in implementing the program.
    My comments are based on our ongoing work for the Chairman 
and Ranking Member of the full Committee. We will release our 
report a week from today. To my knowledge, it is the first 
comprehensive review of this program.
    First, a little background on the program: Unlike other 
modal administrations in DOT, FTA does not have regulatory and 
enforcement authority regarding transit safety. In ISTEA, 
Congress required FTA to issue regulations requiring States to 
designate an oversight agency to oversee rail transit safety. 
In 1997, FTA began to implement the program and issued new 
regulations last year.
    As we noted earlier, there are 42 rail transit agencies 
that are overseen by a total 25 State safety oversight agencies 
in the Country. The program applies to rail fixed guideway 
systems such as heavy and light rail and streetcars that are 
not regulated by FRA and that receive funding under FTA's 
formula program for urbanized areas.
    Turning now to the design of the State Safety Oversight or 
SSO Program, it is meant to be a collaborative effort. At the 
Federal level, FTA requires States to designate a State safety 
oversight agency, develops rules and guidance for the use of 
State agencies in overseeing transit operations, and 
periodically audits State programs and reports on the programs' 
results. It does not fund a State agency's ongoing oversight.
    The Department of Homeland Security is also a player. It 
issued security directives in 2004 and began deploying rail 
inspectors in 2005. Finally, the Federal Railroad 
Administration has authority when rail transit shares track or 
right of way with passenger or freight rail.
    At the State level, the SSOs directly oversee transit 
agencies' activities including their safety and security plans. 
Most commonly, these agencies are State transportation 
departments, but public utility commissions and regional 
transportation authorities also serve in this role.
    At the local level, transit agencies develop and implement 
safety and security plans, assess hazardous conditions, report 
incidents to the oversight agency, and keep the SSO apprised of 
corrective actions.
    With regard to the impact of the State Safety Oversight 
Program, almost all oversight and transit agencies report that 
it is worthwhile in terms of promoting and improving and safety 
and security. Transit agency officials told us the following: 
that the oversight agency helps them identify large systemic 
safety and security issues, that the program exerts influence 
on a transit agency's board of directors or senior management 
to get safety and security improvements made, and encourages a 
consistent approach to safety and security across the Nation's 
diverse transit system.
    However, there is limited information showing the program's 
impact. This has two causes. First, while FTA issued annual 
reports through 2003 that track transit accident/crash/fatality 
on the safety data, it has not established program goals and 
performance measures. We acknowledge that the relatively low 
number of fatalities and incidents and the varying design of 
rail transit systems complicate setting such goals, but we feel 
the effort is worthwhile to gauge the program's effects.
    Second, while FTA views audits of SSOs as a key oversight 
mechanism, FTA has not conducted audits every three years as it 
envisioned at the program's start. This reduced schedule limits 
FTA's ability to conduct oversight including collecting 
information on the SSO agencies and making informed and timely 
revisions to the program. FTA told us they did not keep to 
their audit schedule because they reassessed the priorities of 
the program after the September 11th terrorist attacks. They 
commented that the program is in a transition period and 
committed to us to get back on track with the audit schedule.
    FTA faces two challenges in managing and implementing the 
program. First, the level of State oversight staff expertise 
and the number of oversight staff varies widely. For example, 
one oversight agency requires its staff to have at least five 
years of rail transit experience while another assigned 
oversight responsibilities to a transportation planner as a 
collateral duty. As you can see, the level of staffing also 
varies widely and is not always in proportion to the size of 
the transit system.
    Most transit and oversight agency officials believe that a 
FTA-developed curriculum and Federal funding for training would 
improve the qualifications and effectiveness of SSO staff. This 
would be similar to approaches used by other DOT 
administrations that rely on State employees to provide safety 
oversight.
    A second challenge to implementing the program is that most 
SSO and transit agency staff identified their uncertainty about 
the role of the Transportation Security Administration in the 
SSO program. TSA's rail inspection program is still developing, 
and several Oversight and transit agency officials told us they 
were concerned about the potential for duplication of effort. 
TSA and FTA recognize this concern and have begun discussions 
on how to coordinate their oversight efforts.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions you may have.
    Mr. Petri. Thank you.
    We will begin questioning with Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    I have a couple questions for each, but I would be remiss 
if I didn't welcome Mr. Bob Sedlock, Manager for the Fixed 
Guideway Safety Oversight at the New Jersey Department of 
Transportation, the oversight agency.
    Mr. Chairman, I am troubled by one thing before I start 
asking questions. There continues to be confusion about what 
role the oversight agencies are to play in overseeing rail 
security. As you know, I am on both of those committees. As the 
Transportation Security Administration has hired rail 
inspectors to perform a potentially similar function, this 
could result in conflicting directions or duplication of 
effort. So I hope we will get some clarity here today from you 
folks.
    Ms. Siggerud, in its review of the State Safety Oversight 
Program, the GAO, and I depend a lot in what I do here on the 
GAO. They are an independent agency, and they do great work for 
the members of Congress.
    They found that there was this confusion about what role 
oversight agencies are to play in overseeing rail security, and 
Congress itself as some confusion as to what oversight means 
and what we are supposed to be doing when we oversee. Where 
does our authority begin and where does it end?
    The Transportation Security Administration hired these rail 
inspectors to perform a similar function which could result in 
conflicting directions, as I just mentioned. This is a 
widespread problem with many of the transportation agencies 
when integrating and when partnering with the DHS, the 
Department of Homeland Security, in their public security 
mission.
    In this case, what steps should be taken to remedy the 
situation? What do you think should be done?
    Ms. Siggerud. We will be issuing our report on this entire 
program next week, and we plan to make two recommendations in 
that area. The first would be that the TSA rail inspectors use 
the already considerable work that the transit agencies the 
State safety oversight agencies put into developing these 
security plans that are a part of this program, that the TSA 
rail inspectors use those security plans and work with FTA in 
helping them conduct that oversight of the security part of the 
operation. We are also recommending to the extent that there 
are any significant security findings that the inspectors have, 
that they are keeping the State safety oversight agencies and, 
to the extent relevant, the FTA in the loop as well.
    I think the jury is still out on whether we will see an 
adequate level of cooperation here. There are a few encouraging 
signs. Since we began our work, TSA has designated one of its 
inspectors to be a liaison to each of the State safety 
oversight agencies, and so there is a beginning dialogue. I 
also understand there is a pilot program that is just getting 
underway to work in particular with the California State safety 
oversight organization who will be on the second panel.
    Nevertheless, I think this is an area that needs continued 
oversight.
    Mr. Pascrell. It needs oversight, but the question was 
specifically what were you recommending in order to, in any 
manner, shape, or form, soften the conflicts that apparently do 
exist.
    Ms. Siggerud. And our two recommendations with regard to 
this particular program have to do with making good use of the 
security plan that is already being developed by each of these 
transit agencies and not having dual oversight from TSA and 
FTA.
    Mr. Pascrell. So we still do not have complete plans to 
basically review the safety apparatus, the safety structure, 
infrastructure of the transit lines?
    Ms. Siggerud. Well, each transit agency is expected to 
develop two separate plans, a safety plan and a security plan.
    Mr. Pascrell. And you have oversight over that?
    Ms. Siggerud. No. The State safety oversight agencies have 
oversight over that, and they are active in reviewing and 
approving those plans.
    Mr. Pascrell. Who makes sure that they are doing their job 
of oversight?
    Ms. Siggerud. It is the Federal Transit Administration's 
job. They are to review annual reports from these State 
agencies. Their goal is to conduct audits every three years to 
make sure that the State agencies are carrying out their 
responsibilities.
    Mr. Pascrell. That makes sense to you?
    Ms. Siggerud. Yes, it does.
    Mr. Pascrell. I am glad it makes sense to you.
    Ms. Schruth, the FTA has not developed performance goals 
that I know of for the State Safety Oversight Program. While 
you may not currently be able to definitively measure the 
program's benefits, what is your qualitative assessment, and 
does this program benefit public safety?
    Ms. Schruth. Thank you, Congressman Pascrell.
    We believe that the program definitively adds to the safety 
of the rail transit industry even though it has the lowest 
accident record of any of the transportation modes. We have 
seen a decline in the overall accident rate of the agencies 
under the State Safety Oversight Program of about 7 to 9 
percent since 1999.
    We do have data from the National Transit Database that we 
look at and analyze, but where we lack and where we have 
committed to working to improving our performance measures is 
tying the improvement and performance to the actual State 
safety oversight program.
    Mr. Pascrell. What are the FTA's plans to develop the 
performance measures?
    Ms. Schruth. Well, we have two efforts underway. One is we 
have a contractor directly working for our staff, who is 
identifying potential measures. They have taken all the data 
that has been reported to us, both in the NTD as well as the 
annual reports from the State safety oversight agencies, and 
they are analyzing the types of accidents and the rates, just 
to see what our database is. Then they are trying to identify 
performance measures in the traditional way. So we have that 
effort.
    Plus, we have worked with the Oklahoma State University 
that may end up being some cutting edge research to loot at 
ways that we can measure what we call near misses or things 
that didn't happen because of the program, which would really 
be able to measure the incremental benefits. That study is a 
couple stages effort, but it is underway and we are optimistic.
    Mr. Pascrell. Thank you both. Thank you.
    Mr. Petri. Thank you. I do have several questions, too.
    Ms. Schruth, what are the trends in rail transit safety? 
Are certain kinds of accidents more common than others?
    Ms. Schruth. Yes, Mr. Chairman. First, I want to say, as I 
just mentioned to Congressman Pascrell, the rail programs that 
are under the State Safety Oversight Program represent less 
than two-tenths of 1 percent of all of the transportation 
fatalities in the United States on an annual basis, and that is 
part of the difficulty of measuring success. We have seen a 
downward trend in overall accidents.
    The most prevalent accident or most prevalent safety issue 
right now are accidents involving motorists, and then we have 
trespasser situations. The things that are inherently within 
the control of the transit agency are among the smaller 
percentage of accidents, but nearly half of the accidents are 
intersections with motorists, if you want to call it that.
    Mr. Petri. Ms. Siggerud, I think you kind of answered this 
maybe by implication. Do you see the need to change FTA's 
oversight role of rail transit to more closely resemble 
oversight approaches used by the Federal Rail Administration 
and FMCSA which have Federal and State inspectors and develop 
their own technical standards and can assess financial 
penalties for noncompliance?
    Ms. Siggerud. We thought long and hard about that in the 
past few months as we did this work, and I think the answer is 
not at this time. The reason is, as Ms. Schruth said, this is a 
relatively safe mode of transportation, and we don't have a lot 
of evidence that the State safety oversight approach is not 
working.
    In fact, it would be a very significant mission change for 
FTA to take this on. It would involve hiring, training, and 
deploying inspectors. It would involve developing technical 
standards in an industry that varies widely in terms of the 
approaches to transit. We don't see that there would be 
significant benefit at this point to making such a radical 
change in the authority of the program.
    Mr. Petri. Let me ask both of you this to put you on the 
record. In your opinion, are the State safety oversight 
agencies adequately funded and staffed?
    Ms. Siggerud. I think the answer to that varies. There are 
a number of State safety oversight agencies that have highly 
skilled staff and that are well funded, and I would say they 
are among those that are on your second panel. We found that 
the number of staff and the skills of the staff varied widely 
when we interviewed nearly all of these State safety oversight 
agencies. Some agencies require explicit training or 
experience; others really assign this to folks with very little 
experience as a collateral duty. We also found that in some 
cases the human resources were very stretched in this program.
    This is the reason that we have made a recommendation or 
plan to make a recommendation next week with regard to being 
clearer about the type of training that is needed to perform 
this duty successfully, both with regard to rail transit 
experience and with regard to how to conduct oversight. We also 
feel very strongly that, as FTA ramps up again this auditing 
procedure, it should focus on this issue of adequate resources.
    Ms. Schruth. Mr. Chairman, I will say that FTA is very 
aware that most States at this point are strapped for 
resources, and we do get a lot of feedback from the State 
safety oversight agencies that they feel they do not have the 
resources they need to do a good job.
    From our perspective, I think we set out standards and 
through our auditing process, we look to see if those minimum 
standards are met. We make sure there is technical capacity. So 
long as they meet the minimum technical capacity, then we don't 
feel we can prescribe numbers of staff or actual specific 
training backgrounds.
    Mr. Petri. I have one last question, Ms. Schruth. Does the 
FTA believe that it has the legal authority to direct State 
safety oversight agencies to require certain staffing levels, 
education, experience, or certification requirements of their 
staff? If it does not have such authority, could the agency at 
least issue guidance to States about what levels of staffing 
and training are appropriate for State safety oversight 
agencies.
    Ms. Schruth. If I could, I will answer the second part 
first because I think that is a better answer. We do provide a 
series of courses. We have worked with the Transportation 
Safety Institute in Oklahoma and with NTI as well as the World 
Safety Organization, to ensure that there are courses available 
in the technical aspects of State safety oversight and 
oversight that is provided by the transit agencies. We have 
encouraged the State safety oversight organizations to take 
advantage of the two different certification programs, and we 
bring all the State safety oversight directors in once a year 
at a minimum to talk about new changes.
    We don't think that we can prescribe specific courses, but 
I do think, as what Ms. Siggerud said just previously, we are 
looking at providing some additional training courses that are 
focused on oversight management. All the courses that we have 
developed through TSI and NTI are free to State safety 
oversight agencies.
    I would just have to say that I don't think we can be 
prescriptive about how many staff or what their backgrounds 
are. We think that really the States should conduct their 
programs in the way that they see appropriate, and our 
oversight or monitoring role will reveal in our audits whether 
they are meeting the technical capacity and minimum 
requirements of the program.
    Mr. Petri. Thank you both. I appreciate your presenting 
your testimony.
    We now turn to the next panel which consists of a familiar 
figure in these affairs, Mr. William W. Millar, President of 
the American Public Transportation Association; and Mr. Richard 
W. Clark, Director, Consumer Protection and Safety Division, 
California Public Utilities Commission; and Ms. Duana Love, 
Manager, Oversight and Technology, Regional Transportation 
Authority of Chicago.
    I would like to ask my colleague, Russ Carnahan, to 
introduce the witness from his State.
    Mr. Carnahan. Thank you and welcome all of you. I do want 
to give a special welcome to my fellow Missourian Robert Kraus 
who is the Rail Transit Safety Specialist for the Missouri 
Department of Transportation and State Safety Oversight. We 
always welcome our fellow Missourians here, and we are glad to 
have you with us and to be part of this important discussion 
before the Committee here today. So welcome to all of you.
    Mr. Petri. The final panelist is Mr. Robert Sedlock, 
Manager, Fixed Guideway Safety Oversight, New Jersey Department 
of Transportation.
    We welcome you all, and we will begin with Mr. Millar.

  TESTIMONY OF WILLIAM W. MILLAR, PRESIDENT, AMERICAN PUBLIC 
    TRANSPORTATION ASSOCIATION; RICHARD W. CLARK, DIRECTOR, 
  CONSUMER PROTECTION AND SAFETY DIVISION, CALIFORNIA PUBLIC 
 UTILITIES COMMISSION; DUANA LOVE, DIVISION MANAGER, OVERSIGHT 
  AND TECHNOLOGY DEVELOPMENT, NORTHEASTERN ILLINOIS REGIONAL 
  TRANSPORTATION AUTHORITY; ROBERT KRAUS, RAIL TRANSIT SAFETY 
   SPECIALIST, MISSOURI DEPARTMENT OF TRANSPORTATION; ROBERT 
 SEDLOCK, MANAGER, FIXED GUIDEWAY SAFETY OVERSIGHT, NEW JERSEY 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Millar. Thank you, Mr. Chairman, Mr. Pascrell, and Mr. 
Carnahan. It is good to be with you today, and it is always a 
pleasure to reappear before this Committee, whatever the topic, 
and we are happy here today to be discussing the State Safety 
Oversight Program.
    As you know, APTA has more than 1,500 members including all 
the operators of rail transit, commuter rail service, and light 
rail transit in America.
    Now, safety is one of the highest priorities of the 
Nation's public transportation providers. So I am very pleased 
to discuss how we might improve the already successful State 
Safety Oversight Program, a program that helps ensure the safe 
operation of our rail transit systems.
    Public transportation, particularly rail transit, as has 
already been pointed out by previous testifiers, is among the 
safest modes of travel in the U.S. Some statistics from the 
National Safety Council indicate that rail users are more than 
14 times safer taking a trip in a rail vehicle rather than the 
same trip by a private automobile.
    The State Safety Oversight Program or the SSO Program, as 
it is commonly known, has contributed to the outstanding safety 
record by requiring rail transit operators to periodically 
examine their operations under the watch of a designated State 
agency. The SSO is based mainly on concepts that were initiated 
and developed by the American Public Transportation 
Association, and we are very happy to share our thoughts on the 
current program.
    APTA has been a leader in the area of rail safety, even 
prior to the inception of the SSO Program. Going back to the 
mid-1980's, APTA was asked by our rail members as well as by 
UMTA, which is FTA's predecessor, in the administration of the 
Federal program to develop a standardized program for rail 
transit safety. In response, APTA developed a program that 
established key components for a system safety program plan as 
well as a program to provide audits on a triennial basis. The 
focus of such audits is to assess the degree to which a transit 
system applies its own system safety plan to its operations and 
to assist the transit system in making necessary improvements. 
Our program was founded on effective industry practices already 
in place at the time as well as on the U.S. Military Standard 
882-C. It is a voluntary APTA program known as the APTA Rail 
Safety Audit Program.
    APTA's commitment to safety is also in our basis for our 
Standards Development Program which was initiated some 10 years 
ago. It includes standards for rail transit, commuter rail, bus 
operations, procurement, intelligent communications interface 
protocol, and security. APTA's status as a standards 
development organization has been recognized by the U.S. 
Department of Transportation, and our activities are funded in 
part both by our members and by Federal Transit Administration 
grants.
    Currently, there are 56 public transit systems that 
participate in APTA's rail transit, commuter rail, and bus 
safety audit programs. These are comprehensive audit programs 
that examine every aspect of transit planning, construction, 
acquisition, operations, security, emergency preparedness, and 
maintenance to ensure the safety of public transportation 
passengers and employees.
    The APTA Manual for the Development of the Rail Transit 
Safety Program Plans formed the substantive basis of FTA's 
State Safety Oversight Program when the program was initiated 
late in 1995, and it guided FTA's program until last year. We 
were disappointed then, however, when our manual was not 
referenced or acknowledged by FTA in the recent update of its 
State Safety Oversight Regulations. Our concerns were included 
in our formal comments to the rulemaking. However, it was not 
changed from the draft to the final, but we are pleased that 
FTA continues to acknowledge APTA's program as a standards 
development organization and in funding our program.
    While we wish it was included more in their State Safety 
Oversight Program, we note that many, many of the operators of 
rail transit continue to use our program and it continues to 
form the basis of much of the activity that is out there.
    Outside of FTA, APTA continues to work with other parts of 
the Federal DOT. The Federal Railroad Administration, for 
example, has partnered for the last 10 years with APTA and our 
commuter rail agencies in the development of a voluntary system 
of safety audits known as the APTA Commuter Rail Safety 
Management Program. Again, it has audits and on-going 
developments very similar to what we do on our rail transit 
program. We assist with many safety professionals in helping 
them to develop their skills. Also, unlike the FTA program, the 
FRA actually has its own staff accompanying our auditors on the 
program.
    So, I know my time is just about here.
    There are currently 10 providers of fixed rail transit that 
contract with APTA to execute what is known as the Internal 
Audit Function that is required under the State Safety 
Oversight Program. These 10 providers of service find it to be 
very useful, not only to meet the requirements of the program 
but to improve their own safety activities.
    APTA is also involved in training safety professionals 
throughout the industry, and our own staff members help teach 
at the aforementioned Oklahoma Safety Center and in a number of 
other ways.
    In conclusion, safety is very important to our members and 
very important to APTA. We believe that our role as a standard-
setting organization could be further utilized in the area of 
improving safety.
    We will be happy to answer any questions that the Committee 
might have or supply additional information as you might 
desire. Thank you, Mr. Chairman, for the privilege of being 
here.
    Mr. Petri. Thank you.
    Mr. Clark?
    Mr. Clark. Thank you, Mr. Chairman and members of the 
Committee.
    My name is Richard Clark. I am the Director of the Consumer 
Protection and Safety Division at the California Public 
Utilities Commission. Rail transit safety oversight is one of 
eight programs that I manage.
    California has regulated its rail system since 1868. The 
California Public Utilities Commission has been responsible for 
the safety oversight since 1911. We therefore have a wealth of 
knowledge and experience in the field. As I hope you know, 
California is a leader in the safety and security oversight of 
rail transit systems.
    My first recommendation is going to be that the FTA 
establish communication mechanisms that solicit and incorporate 
the State's knowledge, skills, and abilities into its decision-
making process. I believe that the FTA has taken steps in this 
direction, but there is room for significant improvement.
    My filed testimony gives the Committee a detailed overview 
of the rail transit systems we regulate, the CPUC's staffing 
level and staff expertise, and our regulatory process. My 
comments here today will touch lightly on those areas and will 
then move quickly to what CPUC sees as further opportunities 
for improvement in the FTA's role in the regulatory scheme of 
things.
    CPUC oversight includes the safety and security regulation 
of six major rail transit agencies and encompasses 650 route 
miles with year 2005 ridership exceeding 275 million 
passengers. We oversee the safety of the San Francisco 
Municipal Railroad which began revenue service in 1912, the Bay 
Area Rapid Transit District which began revenue service in 
1970, the San Diego Trolley which began revenue service in 
1981, the Sacramento Regional Transit District in 1987, Santa 
Clara Valley Transit Authority in 1987, and last but far from 
least, the Los Angeles Metropolitan Transportation Authority 
when the blue line began revenue service in 1990.
    CPUC oversight includes four other transit agencies that do 
not have oversight mandated by Federal Transit Administration 
and one additional under construction with expected revenue 
service to start in December of 2007. Lastly, nine major 
projects in varying stages of construction and preliminary 
engineering are currently embedded in the Safety Certification 
Process of the PUC. In fiscal year 2005-2006, CPUC had 11.4 
full time equivalent employees dedicated to rail transit safety 
oversight. The Governor and the Legislature have recently given 
us two more full time equivalents for fiscal year 2006-2007. 
So, we are currently at 13.4 FTEs.
    Rail transit systems are in a perpetual state of 
acquisition and expansion as new equipment is purchased and 
system expansions are developed and constructed to fulfill the 
rapidly growing need for mass public transportation. All 
modifications and system rehabilitations require constant 
design and procurement efforts. Coordination and compatibility 
with the existing system, construction efforts under operating 
conditions, testing and break-in phases must all be managed as 
part of the ongoing system safety effort.
    There are 12 major elements of our system safety oversight 
plan. They run the gamut from review and approval of system 
safety program plans to accident investigations.
    The work of my division including the rail transit safety 
section is strategically planned. We follow a rigorous systems 
analysis of where we want to be, how to measure our 
performance, how to get to where we want to be from where we 
are, and a thorough assessment of our current environment and 
any unanticipated changes in that environment. We have a 
vision, mission, goals, objectives, priorities, work plans, and 
measures of success. We recently contracted with an expert to 
assist us in further developing measures of success because 
they can be difficult as has been stated here earlier today.
    One major advantage enjoyed by the State Safety Oversight 
Program is its separation from the budgetary restrictions that 
apply to transit agencies. We have the authority to impose, 
when needed, a variety of mechanisms in order to gain 
compliance with the system safety program plan or some element 
thereof.
    As a regulatory body, we have, on three occasions, ordered 
the cessation of revenue service after significant accidents. 
We did so in 1979 after a BART fire in a bay tube; we did so in 
2001, after a mechanical failure on the Angeles Flight Railway 
resulted in one fatality and seven injuries; and we did so in 
2004, when the air train at San Francisco Airport decided that 
they were not under our jurisdiction and we forced them to 
comply with filing a system safety program plan soon 
thereafter, but before they went into revenue service, they had 
an accident where two trains collided and cost $3 million.
    Let me skip to my recommendations. I apologize for being a 
bit over time here.
    Our recommendations are the enforcement mechanisms. State 
safety oversight agencies must not be required to negotiate 
safety. We should be required to undertake a good faith 
assessment of risk, but we must maintain our ability to make 
independent safety decisions and to enforce them.
    Staffing issues have been talked about here. Adequate and 
qualified staff is hard to find. We could use the FTA or 
Federal Government to help us in paying for some of that. The 
training has been talked about before. Certainly, although 
there is a training system at the Transportation Safety 
Institute, we don't find that it goes far or wide enough.
    Communications issues, I have talked about before.
    Lastly, with the staffing levels at the FTA, we believe 
that they could use some more staff to help us in safety 
oversight.
    I appreciate your time. Thank you.
    Mr. Petri. Thank you.
    Ms. Love?
    Ms. Love. Good afternoon, Mr. Chairman and members of the 
Subcommittee.
    I am Duana Love, Division Manager of Oversight and 
Technology Development for the Regional Transportation 
Authority of Northeastern Illinois.
    The Regional Transportation Authority was established in 
1974 to ensure a fiscally sound, comprehensive, and coordinated 
public transportation system for Northeastern Illinois. The RTA 
accomplishes this by providing financial oversight and regional 
planning for the area's three public transit agencies: the 
Chicago Transit Authority, Metro Commuter Rail, and Pace 
Suburban Bus.
    The Authority's involvement in the State Safety Oversight 
Program is mandated by the FTA's oversight rule and the RTA 
Act. The Illinois Legislature amended the RTA act to designate 
RTA as the oversight agency responsible for implementation of 
the rule. As defined, the rule requires rail safety oversight 
for any rail fixed guideway system that is not regulated by the 
Federal Railroad and is included in the FTA's calculation of 
fixed guideway route miles or intends to be. Mr. Chairman, 
since Metro Commuter Rail is regulated by the Federal Railroad 
Administration, the Chicago Transit Authority is the only 
agency in the Northeastern Illinois area that falls under the 
rule.
    The Chicago Transit Authority operates eight heavy rail 
lines, including the new pink line service to O'Hare Airport 
that became operational in June of 2006. Each weekday, the CTA 
operates about 175,000 vehicle miles, serving over half a 
million riders.
    The Authority's rail safety oversight program enforces the 
State Safety Oversight Rule. As program guidance, the RTA 
employs the System Safety Program standards and procedures to 
establish requirements to be implemented by the Chicago Transit 
Authority. The standard adopted by the board of directors in 
1997 includes requirements for two key areas: first, safety 
practices to reduce the likelihood of unintentional events that 
may lead to death, injury, or property damage; and second, 
security practices to reduce intentional, wrongful, or criminal 
acts.
    The Chicago Transit Authority safety personnel reports 
directly to the Office of the President. This effective 
reporting relationship provides a direct line of communication 
for addressing safety issues.
    Mr. Chairman, the RTA is committed to a statutory oversight 
function that includes requiring and approving the 
investigation of major CTA accidents, conducting onsite 
triennial safety reviews, filing requisite reports to the FTA, 
and requiring and improving the annual internal safety audits. 
The RTA's oversight program, which occasionally uses 
consultants to augment investigations and audits, is wholly 
funded through our annual operating budget.
    As you aware, there was a derailment on the Chicago Transit 
Authority rail system on July 11th, 2006, that resulted in the 
evacuation of nearly 1,000 passengers from a subway in downtown 
Chicago. The Authority extends our regrets to all of the 
passengers who were injured and inconvenienced. We also commend 
the CTA and the local emergency service agencies for handling 
the incident in a manner that resulted in no fatalities and 
timely restoration of service. That National Transportation 
Safety Board investigation is in progress.
    The FTA's State Safety Oversight Program has been 
beneficial in establishing cooperative working relationships 
among the oversight agencies. Best practices and lessons 
learned are shared during annual meetings, conference calls, 
and workshops sponsored by the Federal Transit Administration. 
The Regional Transportation Authority is currently 
participating in the Accident Investigation and Performance 
Measures Work Groups convened by the FTA to address safety 
program issues.
    The FTA program also enhances interagency coordination. On 
July 11th, 2006, a mass casualty incident training exercise was 
held with the Chicago Transit Authority and the City of Chicago 
Office of Emergency Management and Communications, and during 
that drill, agencies identified areas of improvement to ensure 
proper execution of standard operating procedures and 
communications protocols. The CTA is compiling a lessons 
learned report for submittal to the Department of Homeland 
Security.
    The American Red Cross of Greater Chicago provides another 
example of interagency coordination. During major events, the 
Red Cross provides expanded disaster services by managing 
information on hospitalized passengers for their families. With 
the Red Cross serving such a vital role to the community, rail 
system operators and managers are available to focus on service 
restoration.
    While such coordination opportunities are abundant, 
participation is often limited by resource constraints. Given 
the recent amendments to the State Safety Oversight Rule, an 
expanded commitment of resources is required by oversight 
agencies to ensure compliance. The FTA program could benefit 
from sustained Federal funding to support these ongoing 
oversight activities.
    Mr. Chairman, again, thank you and the Subcommittee for 
inviting me to testify. We at the Regional Transportation 
Authority look forward to working with the FTA and other 
partner agencies to ensure the safety of our public 
transportation system. I appreciate the Subcommittee's 
commitment to the transit safety program, and I will be pleased 
to respond to any questions.
    Mr. Petri. Thank you.
    Mr. Kraus?
    Mr. Kraus. Thank you, Mr. Chairman and members of the 
Committee. I want to thank you for the opportunity to address 
this Committee.
    My name is Robert Kraus. I am a Rail Transit Safety 
Specialist for the Missouri Department of Transportation. I am 
the State Safety Oversight Program Manager for the State of 
Missouri. I have been the Program Manager for approximately 
seven years. My experience includes approximately 25 years 
associated with rail transportation and safety.
    I have been certified as a Transit Safety Specialist by 
U.S. DOT, and I am certified by the World Safety Organization 
as a Safety Specialist in rail transportation. In addition, I 
am an Associate Instructor for the U.S. DOT Transportation 
Safety Institute of Oklahoma City where I teach accident 
investigation.
    My primary responsibility in the State of Missouri with the 
Department of Transportation is state oversight of the 
MetroLink system. It operates by the Bi-State Development 
Agency in St. Louis, Missouri. MetroLink is a medium size light 
rail transit system totaling 38 miles of right of way with 
ridership approaching 16 million passengers a year.
    Throughout the past seven years, State Oversight has 
developed a good working relationship with MetroLink. During 
that time, State Oversight and MetroLink have devised practical 
methods to achieve compliance with the requirements of Part 659 
and the goals of the oversight program.
    The Missouri State Oversight Program has evolved since 
first established in 1996. Missouri has taken a more proactive 
role in problem solving and in safety initiatives affecting the 
MetroLink system.
    MetroLink's Safety Department, as well as its Rail 
Operation Department, consults with State Oversight for input 
or review when establishing new procedures or making changes to 
the MetroLink rulebook. Together, we have devised a corrective 
action process as well as a corrective action form to 
facilitate tracking of unresolved safety items. The process 
specifically identifies the action item and assigns 
responsibility to an individual with in the organization.
    The responsible person must come before the State Oversight 
and the MetroLink Safety Department and provide documentation 
or demonstrate that the corrective action is complete. If the 
corrective action meets the approval of the State Oversight, 
then the person responsible signs the form, verifying the 
completion. State Oversight and the MetroLink Safety Department 
also sign copies and copies are given to each party. Assigning 
individuals to the task has greatly improved our turnaround 
time to completion.
    The original CFR Part 659 that took effect in 1997 
introduced a nontraditional role, not only for many State-
designated agencies but also for FTA. Implementation was 
somewhat awkward initially. State oversight agencies were 
uncertain of the interpretation of Part 659. While most States 
designated their DOTs, other States chose utility commissions 
or public safety agencies. Some States had considerable 
authority, not only to implement the program but to enforce it 
as well, while other State agencies had little or no regulatory 
power.
    My contact with other program managers suggests that this 
disparity still exists between the oversight agencies with 
regard to their authority and respective options to ensure 
compliance. Similarly, the employee designated to serve as a 
State oversight program manager varied as well.
    Most State agencies did not receive a budget to implement 
the program, and there were limited resources available from 
FTA. In many cases, as in Missouri, oversight duties were 
assigned to a current employee. Some States assigned 
individuals with experience in transportation safety or transit 
operations, while other State agencies simply had no option but 
to assign duties to the best candidate available.
    In addition, the compliance aspect of the State Oversight 
Program was founded on the guidance of the American Public 
Transit Association and the APTA Manual for Development of Rail 
Transit System Program Plans. The manual was very beneficial to 
the State Oversight community. However, Part 659 referred to 
the APTA manual as a guideline, thus adding to the debate as to 
what constitutes compliance with the State Oversight Rule.
    The State Oversight Program has matured. The new 49CFR 659 
that went into effect this year more clearly defines the role 
of the State oversight agency and the requirements of the 
transit operator and structured the interaction between the 
State oversight agency and the rail transit operator. The rule 
also clearly lists the required contents of the System Safety 
Program Plan, making the review and approval process much 
easier.
    As a representative of the State Oversight community, I 
must reflect on the needs and concerns expressed by my 
counterparts in other States to share with this Committee. Our 
needs include a core curriculum of training directed to State 
Oversight Program Managers to improve their skills, to provide 
a transit safety foundation, and offer guidance for 
administering the oversight program. FTA must continue support 
of the training made available through the Transportation 
Safety Institute or other qualified sources that reinforce the 
importance of safety and security in the rail industry.
    Fatigue awareness has become an important issue within the 
State Oversight community. The hazard resolution process 
described in Part 659 does not easily lend itself to the 
corrective action process commonly used to address hazards. 
Some States have suggested that an Hours-of-Service requirement 
similar to other modes of transportation may be a positive step 
toward relieving our concerns associated with fatigue. 
Missouri's Hours-of-Service law has been in place since 1993.
    From my perspective, the State Oversight Program is making 
a positive impact on rail transit safety. However, State 
programs need additional resources to keep pace with the 
expanding rail transit industry.
    I am encouraged by the new leadership demonstrated by FTA's 
Office of Safety and Security and by the improvements contained 
in Part 659. The States and the State Oversight community have 
accepted our responsibility and stand with the FTA in its 
effort to improve transit rail safety and security.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Our last panelist, Mr. Robert Sedlock.
    Mr. Sedlock. Chairman Petri, Ranking Member DeFazio, and 
members of the Subcommittee, thank you for the invitation to 
speak before you today on the topic of State safety oversight 
in transit.
    On behalf of Governor Jon Corzine and Commissioner of 
Transportation Kris Kolluri, our State extends its appreciation 
for your interest in the State safety oversight program in New 
Jersey. We are also very grateful to Congressman LoBiondo and 
Congressman Pascrell for your leadership and strong commitment 
to transportation safety.
    Finally, we are grateful for the FTA's State Safety 
Oversight Program because it incorporates structures for 
performance and accountability as well as an in-depth safety 
approach that may serve as a future model for other modes of 
transportation.
    Our office at this time has oversight responsibilities for 
a variety of transit systems in the State: the New Jersey 
Transit Hudson Bergen Light Rail System which is a design-
build-operate-maintain system; Newark City Subway which is an 
older facility and contains a major improvement and expansion--
in fact, we just had an opening on Monday for a major 
extension--the Port Authority Transit Corporation, a high speed 
rail line and a bi-State transit system that operates between 
New Jersey south and Pennsylvania, which has a strong history 
of efficiency and is now in the process of recapitalizing its 
rolling stock; and the New Jersey RiverLine which is a design-
build-operate-maintain system that operates partly on freight 
rail track.
    The diversity of properties, operations, owners, operators, 
and other characteristics of these systems gave us pause in the 
development of our oversight efforts to assure that the 
requirements were workable within such diversity. The variety 
of properties and their locations also involves coordination 
and communication with various Federal agencies including FTA, 
FRA, and TSA through their national offices and through six 
regional Federal offices that interface with the transit 
systems in New Jersey, north and south.
    As noted previously, a key accomplishment of the FTA State 
Safety Oversight Program is the structuring of accountability 
for the public safety. Our experience is that this has been 
particularly helpful in the context of the two design-build-
operate-maintain light rail systems recently built in our 
State. Accountability is defined through the safety oversight 
process, and it is accorded to both the owner and operator of 
the transit system.
    We also note that State safety oversight under the program 
has been very critical at early stages of the development of 
the rail transit system. Our experience has been that it is 
optimal to become involved early in the life cycle of a transit 
system in order that safety is in the forefront of the endeavor 
and system safety is incorporated in all phases of 
modernization or new construction projects. Early inclusion of 
system safety through the safety certification and oversight 
mechanisms clearly provides significant safety and economic 
benefits for the public and the transit agency.
    Important challenges shared among the States are the 
resource needs associated with sustaining expertise, personnel 
retention, and ongoing training. System safety and safety 
oversight require a very specialized approach which needs to be 
continuously emphasized to all personnel involved, whether at 
the oversight agency, the transit agency, the transit entity, 
operators, contractors, et cetera.
    For some States, it is difficult to sustain adequate 
funding for this important, yet unfunded, Federal mandate. It 
is particularly difficult to provide adequately for succession 
of personnel, their training, and related costs.
    Though there has been Federal assistance in the context of 
the establishment of safety oversight offices, under the New 
Starts Program, there is no sustained funding source for 
ongoing State safety oversight activities. This has led to 
disparity among the States in the levels and expertise of 
staffing in the oversight function. Though safety oversight is 
actually a bargain and minimal in relationship to the cost of 
transit operations, sustained, reliable, discreet funding under 
the Federal Surface Transportation Legislation is not provided 
for the States with respect to their safety oversight offices.
    As part of the FTA's requirement for New Starts projects, 
funds are available for the startup and operation of the 
oversight agency through the commencement of revenue service. 
However, continuing transit safety oversight remains as an 
unfunded project, necessarily mandated and that requires 
adequate resources. Many States operate with a minimum staff, 
lean and mean, and must find operating funds from various 
offices or department as well as through invoicing transit 
agencies for services provided.
    With reliable and sustained funding provided to the States, 
oversight agencies could move their programs from a priority-
based environment to a task-oriented implementation effort. 
Thereby, more staff, greater expertise, and added performance 
would be available for this important function through funds-
supported staffing and training.
    Again, thank you for the opportunity to share our 
experiences before this Committee regarding the FTA State 
Safety Oversight Program. Thank you, Chairman.
    Mr. Petri. Thank you.
    Mr. Pascrell?
    Mr. Pascrell. Thank you, Mr. Chairman.
    Again, Mr. Sedlock, thank you for being here, and I extend 
this to your Commissioner as well as the Governor, and thank 
you for your service to your State.
    We know that New Jersey has one of the most successful 
State safety oversight programs in the Country, but as you have 
mentioned, we have come a long way from the language and the 
dialogue of Federal mandate, Federal pay, which you remember 
was a mantra back here not too long ago. Now, we like to tell 
States what they have to do without providing the resources for 
you to do it. I thought I would sum up what you were basically 
telling us, communicating to us.
    Your department is responsible for the oversight of a 
variety of transit properties in the State, ranging from the 
Hudson Bergen Light Rail System in the north to the New Jersey 
Transit RiverLine in the south, which is becoming more 
successful than when it first started. The diversity of 
properties and operations and owners and operators and other 
characteristics of these systems presents quite a challenge to 
assure that the requirements are workable within such 
diversity. So, the coordination and communication with various 
Federal agencies including the FTA, the FRA, the TSA, as 
mentioned earlier, and through the national and regional 
offices is also involved.
    With this complex task, tell us about the staffing and 
expertise requirements involved in the process? What resources 
are you looking for from the Federal Government to help you do 
this job?
    Mr. Sedlock. At this point in time, we have two members as 
a staff for the State safety oversight program which requires 
my efforts at times seven days a week, depending on the 
priorities of the project. So we are limited in staffing.
    There is a major coordination effort that is required now 
between the TSA and the safety oversight. In fact, we have 
underway meetings with the oversight.
    When we do a three year safety review, we are looking at 
both safety and security. And so, to try to minimize 
duplication, there is coordination going on with TSA. Region I 
which is a New York office now for the city subway system is 
due now for a three year safety review. In the south, we have 
the PATCO system which is due for a three year safety review. 
Both audits will be performed during the same timeframe.
    What we will do is coordinate with the TSA. There have been 
initial meetings with the inspector that will be involved from 
the New York office. When I get back in early next week, I will 
start coordination with the Philadelphia office for the PATCO 
system. The state of the audit is ready for award to a 
contractor and probably will take place within the next 30 
days.
    Mr. Pascrell. Thank you, Mr. Sedlock, and thank you all for 
your service, and thank you all for being here.
    Mr. Millar, you have been before this Committee many, many 
times and always provide us, and I hope you feel we are 
cooperating and trying to do the right thing.
    Mr. Chairman?
    Mr. Petri. Mr. Carnahan, any questions?
    Mr. Carnahan. Thank you all.
    I want to direct a question to Mr. Kraus. You described in 
your testimony situations with fatigue awareness that have 
become important in the oversight community. I wanted you to 
describe a little more in detail about how the Missouri Hours-
of-Service regulation has mitigated the concerns associated 
with fatigue.
    Mr. Kraus. We have a regulation with the State of Missouri 
that included the Hours-of-Service requirement when the 
MetroLink system went into operation in 1993. So, it was 
originated in, I believe, the Public Service Commission at that 
time.
    The Hours-of-Service law, actually not confusing it with 
the Hours-of-Rest law as some of our discussions have been, it 
does limit the amount of time an operator can work. It requires 
a certain amount of time off between shifts, and there are 
checkmarks or checklists of things that they need to complete 
when they come back to duty to indicate on the roster that they 
have been off for a certain amount of time. It has been in 
effect, as I said, well, since 1993. I was talking to the Chief 
of Operations yesterday, and we have been able to conduct 
business without it really interfering with the schedules and 
so forth.
    Mr. Carnahan. Thank you.
    Mr. Petri. Thank you.
    Mr. Millar, could you describe your organization's role as 
a standard setting organization in the context of rail transit 
safety?
    Mr. Millar. Yes, sir.
    APTA, for the last 10 years, has been setting standards for 
our industry. We use a consensus-based approach, that is, we 
bring the experts who are operating in the industry together to 
examine particular areas, be it equipment areas, be it safety 
practices, be it procedures for maintenance. What we are trying 
to do is identify the best practices that are available and 
come to agreement on how they should proceed. To formally adopt 
our standards, we use the approach that is adopted by the 
American National Standards Institute, the so-called ANSI 
approach to things. Basically, here what we are trying to do is 
get a balance of different interested parties, so that no one 
perspective can dominate in the development.
    We use a public comment period to make sure that while the 
experts have done their best and brought the best information 
to the table, there may be other information that we need to 
have access to as we proceed. We have a very formal requirement 
to respond to each and every one of the comments that are 
brought into it, so things cannot be, shall we say, just 
allowed to fall off the table without careful consideration. We 
have an appeal procedure in place, so that if a participant in 
the process feels that his or her position has not been 
properly represented or considered, there can be an appeal.
    We use a balloting process then across the industry, and we 
require a super majority. It is not a matter of 50 plus 1, but 
rather I believe it is two-thirds in most instances, a super 
ballot, again to try to arrive at the broadest consensus that 
we possibly can.
    And, finally, our standard setting process requires a 
formal process to interpret rules and standards that are 
developed over time. You do the best you can when you are 
developing standard, but experience always teaches you more. 
So, there is a standard process that is used for developing 
these interpretations and a process for updating the standards.
    It has worked very well for us. We have issued over 200 
consensus standards that are now being widely implemented in 
the industry, and we believe it is part of what is allowing our 
industry to proceed and progress.
    Mr. Petri. Thank you.
    Ms. Love, your agency oversees safety for the Chicago 
Public Transit Authority. Last week during evening rush hour, 
there was a train derailment and fire at the Park and Lake 
subway station in downtown Chicago. While there were no 
fatalities, two people were critically injured. As a State 
oversight agency, what is your responsibility when there is an 
accident and what procedures are in place?
    Ms. Love. Yes, Mr. Chairman, the first interaction between 
us and the Chicago Transit Authority is upon notification. They 
are required to notify the RTA within two hours of occurrence. 
Once we are notified, we start to work. We are not a first 
responder, so we are not racing to the scene in terms of that 
effort, but we start our coordination.
    In this instance, we contacted the TSA. As has been stated, 
we have a liaison with the Rail Inspection Program. She was 
brought to the table and kept in the loop in terms of 
developments. In terms of a cooperative team, I communicate 
with the incident commander from the CTA who would be on-scene 
to determine what the severity of the incident is. Once we were 
able to rule out that it was not a terrorist event and 
understanding what it was that we were dealing with, the next 
priority is in the first response and getting everyone to 
safety before we can begin investigation and restoration of 
services.
    Mr. Petri. Thank you.
    Mr. Clark, as you have pointed out, the California Public 
Utilities Commission has the largest and one of the oldest 
State safety oversight programs. What do you believe are the 
most important factors in establishing an effective State 
safety oversight program?
    Mr. Clark. I believe that the most important factors are 
that one must take a system safety approach. One must include 
inspections, investigations of accidents, and continual 
updating and revision of the rules as they apply and as time 
changes.
    As I mentioned earlier, we have a 12 part process, and I 
will just go through that very quickly for you. We review and 
approve the System Safety Program Plans; review and approve the 
System Security Program Plans; review and approve hazmat 
management plans; we do triennial reviews which are critical; 
participate in the agency's internal safety audit processes 
which is quite time consuming but very valuable; review and 
approval of Safety Certification Plans for new construction for 
major projects; final review of safety certification prior to 
start of revenue service of any new system or major project; 
periodic inspection activities; participation in fire life 
safety activities and drills; review of accident investigations 
conducted by the transit agencies on behalf of the PUC; and 
then we conduct our own accident investigations in some places.
    So it is a systems approach. We are involved very early in 
the planning and development of either the new program or the 
extension of the transit, and those are the key and critical 
elements, I believe.
    Mr. Petri. Thank you.
    Mr. Kraus, the Missouri Department of Transportation 
actually oversees the transit safety of St. Louis Bi-State 
MetroLink system in coordination with an agency in an adjoining 
State, the St. Clair County Transit District in Chicago, 
Illinois. How do you manage to maintain consistent oversight 
with two different agencies sharing that responsibility?
    Mr. Kraus. Primarily, we have one system safety program 
standard that both of us have adopted, so that in the 
requirements for reporting, the only different is going to be a 
different telephone number for Illinois and for Missouri, but 
as far as the standard goes, it is the same on both sides of 
the river, so we don't have a discrepancy between what is 
required between the two different States.
    Mr. Petri. Thank you.
    Mr. Sedlock, New Jersey's transit rail system has expanded 
significantly in the last 10 years with the recent openings of 
the Hudson Bergen Light Rail, the RiverLine, and the Newark 
City Subway extension that opened just a few days ago. Has the 
rail Safety Oversight Office of the New Jersey Department of 
Transportation grown as the system mileage and ridership under 
your authority has grown?
    Mr. Sedlock. Unfortunately not, sir. We are limited in the 
staff. Unfortunately, the oversight agency is not growing. We 
are restrained because of funding. So it does place some burden 
on the staff, but we are able to keep up only because it is a 
dedicated force and if it takes working around the clock, we do 
that, sir.
    Mr. Petri. Mr. Pascrell?
    Mr. Pascrell. Yes, Ms. Love, I was interested in your 
saying that you are not a first responder as the Manager of 
Oversight and Technology of the Transportation Authority. Who 
is responsible for securing the scene of an underground 
accident?
    Ms. Love. Primarily the CTA in their cooperation with the 
Chicago Police and the Chicago Fire Department.
    Mr. Pascrell. And the Chicago Transit Authority?
    Ms. Love. Yes.
    Mr. Pascrell. You don't work for the Chicago Transit 
Authority?
    Ms. Love. I do not. I am a representative of the Regional 
Transportation Authority.
    Mr. Pascrell. So you are on the regional board. The CTA 
would secure the accident site?
    Ms. Love. Yes.
    Mr. Pascrell. Then you would go to the accident site and do 
what?
    Ms. Love. Our activities are mostly for oversight and 
monitoring. So when I interface with that team that is 
responding to the incident, I am making sure they are following 
all the appropriate protocols and communications that have been 
established, and that everything we have in place in terms of 
our safety standard is actually effective.
    Mr. Pascrell. Homeland Security just came back from London 
and Madrid, and one of the major problems we were talking about 
over there is sometimes the problems that exist in securing the 
scene and still trying to get people out of the scene. This is 
a very serious situation, and I hope there is thought given on 
a regional basis as well as the Chicago Transit Authority 
because that may be the difference between discovering what the 
problem is and who is responsible for it, whether it is man-
made or simply an accident. Securing of that accident is very 
critical.
    Thank you. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Thank you all for your testimony and 
your responses to the questions.
    This hearing is adjourned.
    [Whereupon, at 3:50 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0660.001
    
    [GRAPHIC] [TIFF OMITTED] T0660.002
    
    [GRAPHIC] [TIFF OMITTED] T0660.003
    
    [GRAPHIC] [TIFF OMITTED] T0660.004
    
    [GRAPHIC] [TIFF OMITTED] T0660.005
    
    [GRAPHIC] [TIFF OMITTED] T0660.006
    
    [GRAPHIC] [TIFF OMITTED] T0660.007
    
    [GRAPHIC] [TIFF OMITTED] T0660.008
    
    [GRAPHIC] [TIFF OMITTED] T0660.009
    
    [GRAPHIC] [TIFF OMITTED] T0660.010
    
    [GRAPHIC] [TIFF OMITTED] T0660.011
    
    [GRAPHIC] [TIFF OMITTED] T0660.012
    
    [GRAPHIC] [TIFF OMITTED] T0660.013
    
    [GRAPHIC] [TIFF OMITTED] T0660.014
    
    [GRAPHIC] [TIFF OMITTED] T0660.015
    
    [GRAPHIC] [TIFF OMITTED] T0660.016
    
    [GRAPHIC] [TIFF OMITTED] T0660.017
    
    [GRAPHIC] [TIFF OMITTED] T0660.018
    
    [GRAPHIC] [TIFF OMITTED] T0660.019
    
    [GRAPHIC] [TIFF OMITTED] T0660.020
    
    [GRAPHIC] [TIFF OMITTED] T0660.021
    
    [GRAPHIC] [TIFF OMITTED] T0660.022
    
    [GRAPHIC] [TIFF OMITTED] T0660.023
    
    [GRAPHIC] [TIFF OMITTED] T0660.024
    
    [GRAPHIC] [TIFF OMITTED] T0660.025
    
    [GRAPHIC] [TIFF OMITTED] T0660.026
    
    [GRAPHIC] [TIFF OMITTED] T0660.027
    
    [GRAPHIC] [TIFF OMITTED] T0660.028
    
    [GRAPHIC] [TIFF OMITTED] T0660.029
    
    [GRAPHIC] [TIFF OMITTED] T0660.030
    
    [GRAPHIC] [TIFF OMITTED] T0660.031
    
    [GRAPHIC] [TIFF OMITTED] T0660.032
    
    [GRAPHIC] [TIFF OMITTED] T0660.033
    
    [GRAPHIC] [TIFF OMITTED] T0660.034
    
    [GRAPHIC] [TIFF OMITTED] T0660.035
    
    [GRAPHIC] [TIFF OMITTED] T0660.036
    
    [GRAPHIC] [TIFF OMITTED] T0660.037
    
    [GRAPHIC] [TIFF OMITTED] T0660.038
    
    [GRAPHIC] [TIFF OMITTED] T0660.039
    
    [GRAPHIC] [TIFF OMITTED] T0660.040
    
    [GRAPHIC] [TIFF OMITTED] T0660.041
    
    [GRAPHIC] [TIFF OMITTED] T0660.042
    
    [GRAPHIC] [TIFF OMITTED] T0660.043
    
    [GRAPHIC] [TIFF OMITTED] T0660.044
    
    [GRAPHIC] [TIFF OMITTED] T0660.045
    
    [GRAPHIC] [TIFF OMITTED] T0660.046
    
    [GRAPHIC] [TIFF OMITTED] T0660.047
    
    [GRAPHIC] [TIFF OMITTED] T0660.048
    
    [GRAPHIC] [TIFF OMITTED] T0660.049
    
    [GRAPHIC] [TIFF OMITTED] T0660.050
    
    [GRAPHIC] [TIFF OMITTED] T0660.051
    
    [GRAPHIC] [TIFF OMITTED] T0660.052
    
    [GRAPHIC] [TIFF OMITTED] T0660.053
    
    [GRAPHIC] [TIFF OMITTED] T0660.054
    
    [GRAPHIC] [TIFF OMITTED] T0660.055
    
    [GRAPHIC] [TIFF OMITTED] T0660.056
    
    [GRAPHIC] [TIFF OMITTED] T0660.057
    
    [GRAPHIC] [TIFF OMITTED] T0660.058
    
    [GRAPHIC] [TIFF OMITTED] T0660.059
    
    [GRAPHIC] [TIFF OMITTED] T0660.060
    
    [GRAPHIC] [TIFF OMITTED] T0660.061
    
    [GRAPHIC] [TIFF OMITTED] T0660.062
    
    [GRAPHIC] [TIFF OMITTED] T0660.063
    
    [GRAPHIC] [TIFF OMITTED] T0660.064
    
    [GRAPHIC] [TIFF OMITTED] T0660.065
    
    [GRAPHIC] [TIFF OMITTED] T0660.066
    
    [GRAPHIC] [TIFF OMITTED] T0660.067
    
    [GRAPHIC] [TIFF OMITTED] T0660.068
    
    [GRAPHIC] [TIFF OMITTED] T0660.069
    
    [GRAPHIC] [TIFF OMITTED] T0660.070
    
                                    

</pre></body></html>
